t

ORIGINAL
Supreme Court, U.S.
FILED

82

JUL 2 5 2020
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
ALLA ZORIKOVA,

Petitioner,
v. REALVEST INC,
Respondent.

On Petition for Writ of Certiorari to
the Southern District Court of Appeal, Missouri

PETITION FOR A WRIT OF CERTIORARI
ALLA ZORIKOVA
1905 Wilcox Ave, #175,
Los Angeles, CA 90068
Phone: 323-209-5186
Email: olivia.car@mail.ru

1

RECEIVED
JUL ? 9 Wfl
SUpremeFcoIjbtL^k

J QUESTIONS PRESENTED
^ Did Circuit Court denied Petitioner’s Constitutional right for fair Trial by entering
judgment against the law, weight of evidences and facts?
£ t Did Southern District Court of Appeal falsified facts in its Statement/opinion?
Did the circuit court erred in allowing to Respondent (who is foreign Nevada’s
Corporation) to proceed with his action against Petitioner in the Court of Missouri while
being a foreign Corporation and therefore barred by law from accessing Courts of
Missouri. Circuit Court failed to apply RSMo Section 351.574 states "no foreign
corporation, failing to comply with this chapter, can maintain any suit or action, either
legal or equitable, in any of the courts of this state, upon any demand, whether arising
out of the contract or tort" RSMO §351.574.
4/1 Did The circuit court erred in denying Petioner’s request to recognize that Respondent
charged usurious interest to Petitioner and that Petitioner had paid usurious interest to
Respondent, that Pursuant RSMo 408.030 (2) "Ifa rate of interest greater than permitted
by law is paid, the person paying the same or his legal representative may recover twice
the amount ofthe interest thus paid, The person so adjudged to have received a greater
rate of interest shall also be liable for the costs of the suit, including a reasonable

2

attorney's fee to be determined by the court. " RSMo 408.030 (2) RSMo 408.015 RSMo
408.050 Sec. 408.035 RSMo 408.030 (1) RSMo 408.030 Sec. 408.020 to 408.562
Did the Trial Court erred in failing to provide relief to the Petitioner under TELA (Truth
In Lending Act)?
^ Did the Circuit Court errered by failing to act in accordance with its duty because Court
failed to submit fact of peijury committed by Respondent to Prosecuting Attorney and
failed to recognize Respondent based on the fact of his evasive statements that are false
and material to the proceedings in wich the statement is made under oathm, statement
was untrue, new it was untrue with intend to defraud, which is criminal offence?
Did the Circuit Court abused its discretion and erred in granting to Respondent monetary
judgment in the amount of $53,000 even Respondent had withdrew his monetary demand
in Count I of his Amended Petition and Count II of his Amended Petion was dismissed,
and the only the request for foreclosure of Petitioner’s Land has been filed by Respondent
and all money from the sale of the land be paid to Respondent and to cover attorney fees,
and reminder of money from sale will go to Petitioner?
£«• Did the circuit court erred in denying Petitioner’s request for punitive damages be
awarded to because Respondent defrauded Petitioner by selling the land with fraudlent
APR and with excessive amount of fees applied that are not permitted by law? RSMo
407.025

RSMo 407.020 Sec. 408.100 to 408.561 RSMo 408.554 RSMo 407.453

RSMo 408.555 RSMo 408.562 RSMo 408.052

3

II. Table of Contents
£ Question Presented...............

1

, Table of Contents..................

u

jJl Table of Authorities..............

in

11/ Petition for Writ Of Certiorari
11/

1

—

i

y Opinions Below............................

1

Y), Jurisdiction....................................

1

yy * Constitutional Provisions Involved

I
2

\flH ^Statement of the Case................................
j ^ REASONS FOR GRANTING THE WRIT

6

X . CONCLUSION..........................................

9
11

XI. APPENDIX
III. Table of Authorities
Cases

If

." Kirkpatrick v. Webb 58 S.W. 3d 903, 905 (Mo App S D 2001). P
Spier v Brewer, 958 S. W. 2d 83, 87 (Mo App E.D. 1997) ; p

If

Moss Sprongs Cemetery Association v. Johannes, 970 S. W. 2d 372 376-77 (Mo App. S.
D. 1998)p

If
If

Herrin v Straus, 810 s.w. 2d at 594-95 p

4

Sprung, 727 S.W.2d at 887p

16

Affiliated Acceptance Corp. v. Boggs, (Mo.917 S.W.2d 652)

P-tf

(1996)
Addison, 758 S. W.2d at 458.

p.l#

Auto Salvage Co., 134 S.W.3d 633, 635 (Mo. banc 2004)).
Bahl v. Miles, 222 (Mo. App. 984, 987, 6 S.W.2d 661, 663 (K.C. Ct. App.
1928))

p.lg

Bank v. Donnell, (\12 Mo. 384, 72 S.W. 925 (1903)
Bass v. Nooney Co.,( 646 S.W.2d 765, 722-733 (Mo banc
1983)

p.lg

Brown, 655 S.W.2d at 760
Gehlert v. Smiley, 114 S. W.2d 1029 (Mo. 1937).
Cuendet v. Love, Bryan & Co.,

p.lf
p.lg

Fischman v. Schultz, 55 S. W.2d 313 (St. L. Ct. App.

.p.lg

1932).

Flinn v. Mechanics' Bldg. Ass'n, 93 (Mo. App. 444, 67 S.W. 729 (St. L. Ct. App.
1902

.p.lS

5

Hecker v. Putney, 196 S. W.2d 442 (St. L. Ct. App. 1946).

P-W

Holmes v. Royal Loan Ass’n, 166 Mo. App. 719, 150 S.W. 1111 (K.C. Ct. App.
1912)

■P*l|

Kirkpatrick v. Webb 58 S. W. 3d 903, 905 (Mo App. SD 2001)

p. lg

J. I. Case Threshing Mach. Co. v. Tomlin, 174 Mo. App. 512, 161 S.W. 286 (K.C. Ct.
App. 1913)

p.18

Kreibohm v. Yancey, 154 Mo. 67, 85, 55 S. W. 260, 266 (1900)
Osborn v. Payne, 111 Mo. App. 29, 85 S. W. 667 (K.C. Ct. App. 1905),

•p.lS
.p.17

SecuritiesInv. Co. v. Rottweiler, 7S.W.2d484, 486 (St. L. Ct. App. 1928)... p.lT
Webster v. Sterling Fin. Co., 355 Mo. 193, 203, 195 S.W.2d 509, 514 (1946).

,p.l7

Willard, Finance Charges or Time Price Differential in Installment SalesUsury, 24
Mo. L. REv. 225 (1959). v. Neuman, 271 S.W. 842 (St. L. Ct. App. 1925)....... pl7
Cavally v. Crutcher, 9 S.W. 2d 848 (Spr. Ct. App.
1928).

.p.10

Flowers, 384 S.W.3d at 314.

p.l#^

Holmes v Wells Fargo WD78666 (Mo.App. W.D.
2012),

P*/

Laughrey, Default Judgments in Missouri, 50 Mo.L.Rev. 841, 843-44 (1985).

6

Lake Shore & M.S. Ry. Co. v. Prentice,147 US 101,13 S Ct.261,37L Ed
(1893)

,p.l8

Lance SCOTT, v. BLUE SPRINGS FORD SALES, INC., No. SC 86287. November 22,
2005.

pi 8

Medlock v. Farmers State Bank of Texas County, 696 S.W.2d 873, 879 (Mo. App. S.D.
1985) (citing Bass, 646 S.W.2d at 772-73).

.p.18

Perf ect 10, inc v Cybernet Ventures Inc. 213 F. Supp.2d 1146, 1155 (C.C.Cal.2002)
Johnson-Wooldridge v Wooldridge 2001 Ohio App LEXIS 3319 at 12-13 (Ohio App July
26, 2001)..
Chapman v SF Newspaper Agency 2002 U.S.District LEXIS 180....
LEXOLOGY.COMinformationon a governmental website will be admissible under
public records, trying to establish info posted on websirte is not hearsay

.p.i&y

prung, 727 S.W.2d at 887.
Randolph v. Rodgers, 170 F.3d 850, 857 (8th Cir.
1999)

p.lfy

State ex rel Nixon v. Telco Directory Publ’g., 863 S.W.2d 596 601 (Mo. banc
1993).

p 1&2-Q

State Farm Mut Ins. v. Campbell,538 us 408, 418, 123 S. Ctl513, 155 L Ed 2d595
(2003).

7

The Supreme Court's opinion in State Farm Mut. Ins. v. Campbell,
Truck Ins. Exch. v. Prairie Framing, LLC, 162 S.W.3d 64, 94-95 (Mo.App.2005).pH? 2j3>
Allen v,Newton, 219MoApp. 74, 79, 266S.W. 327, 329 (K.C. Ct. App. 1924) ...p.#
Citizens’ National Bank v. Donnell 172 Mo 384, 72 S. W. 925 C1903) ...p.
Robin v. Newman 271 S. W. 842 (St. L. Ct. App. 1925)
’’Downey v. McKee, 218 S.W.3d 492, 497 (Mo.App.2007)(quoting Werremeyer v. K.C.
Truth In Lending Act (TILA)

.p.4s& ZO

RSMo 408.030 (1) RSMo 408.030 Sec. 408.020 to 408.562 Sec. 408.020 to 408.040
RSMo 407.025

RSMo 407.020 Sec. 408.100 to 408.561 RSMo 408.554 RSMo

407.453 RSMo 408.555 RSMo 408.562 RSMo 408.052 p
§§ 408.030.2p

2,11,12

Rule 84.04(a)(3)p
Rule 84.04(c)p

2

13
13

Mo. Const, art. V, § 2. Statutes
28 U.S.C. § 1257

9
Constitutional Provisions

United States Constitution, Amendment V , United States Constitution, Amendment VI..
United States Constitution, Amendment XIV

10

IV. PETITION FOR WRIT OF CERTIORARI
Alla Zorikova, the Petitioner, petitions this Court for a writ of certiorari to review the
Statement issued by SDCOA case #SD36049, which failed to issue its opinion on Appeal
8

from 26 Circuit Court Camden County of Missouri case 16CM-CC00086.
V. OPINIONS and JUDGMENT BELOW
The 26th Circuit’s Court of Camden County of Missouri judgment
attached as Appendix 1. The Southern District Court of Appeal court’s opinion attached
as Appendix 2.
Supreme Court’s of Missouri order denying Application to Transfer attached as
Appendix 3.
VI. JURISDICTION
Petitioner invokes this Court's jurisdiction under 28 U.S.C. §
1257, having timely filed this petition for a writ of certiorari within ninety days of the

JZ

Petitioner’s Motion for Rehearing^ „-nr=.:;r.i£5s

has been denied by SDCOA plus 60

days extension time added and allowed because of COVID19.
Judgment has been entered by 26th Circuit Court of Camden County of Missouri on Dec
07 of 2018 on case #16CM-CC00086.
Notice of Appeal, Motion to proceed as Poor Person, Motion to Set Aside filed by
Petitioner on Dec 12 of 2018.
The date the Court of Appeals Statement (substitute for Opinion) was issued __
02/24/2020

9

03/02/2020

The date the motion for rehearing was filed
and denied on

03/09/2020

The date the application for transfer was filed in the Court of Appeals
and ruled on

04/28/2020

3

03/23/2020

AT

Appellant had filed Motion for Release from Judgment as well, the Moyion has been
denied. C/J

VII. Constitutional Provisions Involved
United States Constitution, Amendment V:
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval
forces, or in the Militia, when in actual service in time of War or public danger; nor shall
any person be subject for the same offense to be put twice in jeopardy of life or limb; nor
shall be compelled in any criminal case to be a witness against himself, nor be deprived
of life, liberty, or property, without due process of law; nor shall private property be taken
for public use, without just compensation.
United States Constitution, Amendment XIV:
All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State

10

shall make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
VIII. STATEMENT OF THE CASE
The judgment entered by 26th Circuit Court had egregious errors. It appears that quait
frankly the State Low and Constitution of USA just totally disregarded and abolished by
judges for this case in the State of Missouri. I have law degree from Europe and practiced
law in Europe as well. People of Missouri are treated by authoriyies as people of t tird
world country, what I had come through is just unbelievable lawless, disregard of human
rights and blooming of corruption, which stays unpunished. Attorneys advising to clients
to lie as was in my case. SDCOA shamelessly, in the face falcified facts in its statement
(I observed just the same in Court of Appeal in Kansas City). It appears very common
and punished practice in Missouri.
This case presents a questions of exceptional interest and importance to the citizens of
USA based on the fact of entering judgment by Camden County Circuit Court against the
law, facts and evidences and therefore denying Appellant's rights for fair trial. This case
necessitates re-examination to ensure people of Missouri have constitutional rights for
due process and private property, as well as their rights not be charged unlwfull usurious
interest and be protected from committing peijury in court offenders.

'Respondent had filed this lawsuit for foreclosure against Petitioner in May of 2016.

11

Plaintiff-Respondent is a foreign Nevada's Corporation. Petitioner Alla Zorikova brought
her action against Plaintiff -Respondent for charging illegal usurious interest rate for
charging usurious interest under §§ 408.030.2 as an affirmative defense and as a
counterclaim, for abuse of process and bad faith as Petitioner had filed her Counterclaim
and Affirmative Defenses on 19 of May of 2016. Respondent files motion to Withdraw
Plaintiffs request in Count I for Monetary Damages in First Amended Petition on
February 23 of 2017, which was granted by Court Order on March 23 of 2017 . On May
23 of 2017 Plaintiff -Respondent dismissed his cause of action as for all monetary
damages alledged. Oct 19 of 2018 Appellant filed statement about committed peijury by
Matt Roming. Judgment entered by Circuit Court on Dec 07 of 2018 . Notice of Appeal,
Motion to proceed as Poor Person, Motion to Set Aside filed by Petitioner on Dec 12 of
2018.
Petitioner had purchased under terms of Purchase Contract from Plaintiff Realvest Inc the
vacant land parcel located at 279 Quantrill Hollow, Montreal, MO 65591 with legal
description attached to the Warranty Deed . The total purchase price for the land under
the terms of the Purchase Contract is $33,000.00 .Warranty Deed has been issued to
Petitioner by Plaintiff-Respondent. Respondent offered 2 options for the Petitioner to
choose from regarding the lentgh of repayment such as #1. 144 month and #2. 240 month
both options had interest rate applied as 12 %. Petitioner agreed to option with terms for
144 month interest rate 12% for repayment of the loan. The fees assigned were $249.00 +
$864.00. The APR listed by Respondent on purchase agreenment was 12% while real and
true APR if someone calculates it by using numbers in the purchase contract was 12.86%.
Petitioner paid total of _$27,175

to the Plaintiff -Respondent. The total interest paid
12

by Petitioner to Plaintiff is $16,572.48. Last payment made by Petitioner to Plaintiff Respondent in the amout of $1,736.68 was made on_15 March_2016_-. The legal rate of
interest allowed by the Statutory law in Missouri cannot exceed 10%. RSMo 408.030.
Loan has been given by Plaintiff -Respondent to Petitioner in August of 2010. The market
rate in the State of Missouri in 2010 had not exceeded 8% anumn. The rate of interest
greater than permitted by law was paid by Petitioner to the Plaintiff -Respondent. RSMo
408.030. Petitioner may recover twice the amount of the interest thus paid. (RSMo
408.030.). Petitioner had testified that she had significant emotional distress. Respondent
had charged Petitioner illegal fees in amount of $864 +$249 . Petitioner therefore may
recover twice the amount paid together with costs of the suit and reasonable attorney's
fees. RSMo 408.030. Petitioner had built cabin on the Land. The Land and the Cabin is a
primary residence for the Petitioner. There is no Notice of Default has been provided by
Respondent to Petitioner in January of 2016 or before that date. There is no Notice of
Default has been provided by Respondent to Petitioner in February of 2016. Petitioner
paid to Respondent $_1,736.68_ on March_15_ of 2016 . Petitioner paid to Respondent
$ 868 on March 21 of 2016 . Z.

Oct 19 of 2018 . Petitioner filed statement with the

Trial Court about committed peijury by Respondent supported with evidences.
Rule 84.04(a)(3) requires an appellant’s brief to contain “[a] statement of facts[.]”
Id. Petitioner’s statement of facts have had specific page references to the relevant
portion of the record on appeal, i.e., legal file, transcript, or exhibits. Rule 84.04(c).
Petitioner’s brief and points were in compliance with Rule 84.04.

13

Judgment entered by Circuit Court in each and every issue and point is against weight of
evidences, against the law.
The decisions of the Supreme Court of Missouri are controlling upon this court. Mo.
Const, art. V, § 2. Since Murphy v. Carron in 1976, our supreme court has required that
in a court-tried civil case, the judgment of the trial court will be sustained by the appellate
court unless there is no substantial evidence to support it, unless it is against the weight of
the evidence, unless it erroneously declares the law, or unless it erroneously applies the
law. 536 S.W.2d 30, 32 (Mo. banc 1976.
Its Statement Court of Appeal starts from evasive at least and fraudlent at most wrongfull
statement:" Most ofAppellant’s statement offacts recites procedural events in the case,
supported only by references to the legalfile or trial exhibits. A number ofstatements
have no references to the record at all. 2 Only five pages from the transcript are cited'.
However, the truth is that only about 30 of Petitioner’s statements of facts are procedural
while about 70 are totally not relevant to procedural issues. 30 is obviously falsly called
"the most" from 100. Court of Appeal evasively once again stating "Onlyfive pages from
the transcript are cited" While it was twice more pages cited and other statements have
reference to pages in legal file or exhibits. How these both courts (Court of Appeal and
Circuit Court) lie in a face? That's why Respondent shamelessly cheats the judge on
hearings and commiting peijury without hesitation, he knows that Judge and court above
provide evasive statements and falsifying facts as well.
"In a bench-tried case, the judgement of the trial court will be sustained UNLESS there

14

is no substantial evidence to support it, unless it is against the weight of the evidence, or
unless it erroneously DECLARES OR APPLIES THE LAW." Kirkpatrick v. Webb 58
S.W. 3d 903, 905 (Mo App S D 2001). This standard of review generally requires
permissible inferences to be viewed favorably to the judgment and the trial court must be
given deference to determine the credibility of witnesses. Id. At 905 But in private road
cases, appellate courts will reverse a judgment rejecting the need for a road if the
judgement is against the weight of the evidence. See, e.g. id. At 907-08; Spier v Brewer,
958 S. W. 2d 83, 87 ( Mo App E.D. 1997); Moss Sprongs Cemetery Association v.
Johannes, 970 S. W. 2d 372 376-77 (Mo App. S. D. 1998)
However, in this case, the merrits, facts and law is so enormously in favor of the
Petitioner that SDCOA has nothing to do but attempted to decide the outcome of Appeal
on procedural "errords" instead of merrits, which is completelly against common law and
practice in Missouri as well as in other states of USA. Wherefore, the Statement that has
been issued by Appellate Court is against the Opinions favoriting decide cases on merites
and therefore must be reversed. Appellate Court denied my fundamental constitutional
rights provided to USA citizens by USA Bill of Rights of USA Constitution as well as by
Constitution of the State of Missouri, such as right for fair trial and the right to have
private property that noone can take without due process.
During all 3 years of this letigation, Petitioner had numerous ocasions of constant
oppression by the Circuit Cour and obstraction of her pleadings , trial, post trial motions
and this Appeal.
Court's finding of Facts and Conclusion of Law are so obviously erroneous if one looks

15

on admitted evidences, transcripts and law pointed above, especially regarding paragraphs
1, 6,16,17, 23,25, 26, 27, 29, 32, 36, 37, 40, 48, 49, 51, 54, 57,60, 65, 71. Court elected
just to sign unmodified facts and conclusion of law proposed to Court by Respondent.
Conclusions of law in the Judgment are also inverted and do not reflect the true law,
which had to be applied if it would be fair hearing by fair competent judge. Petitioner has
basic constitutional right for FAIR hearing that circuit court viciously denied to
Petitioner.
For example the Trial has been set as 3 days trial, and only on the horn- #11 while on the
first day of trial Petitioner learned that she will have only one day for Trial. As result, her
day in Trial was over 12 hours non stop, she beraly could speak at the end because was
speaking almost all 12 hours, there were not enough time neither for closing arguments
nor for other matters. Next Circuit Court obstracted Notice of Appeal, which was filed
timelly on January 04 pof 2018 but reached the Court of Appeal only in April of 2019 or
about that time. Now Appellant has couple days to prepare all this brief because Circuit
Court just released transcripts and stiil failed to delivere to Petitioner Legal File as on
August 18 of 2019. Even after receiving mailed 1335 pages of the legal file, Court again
made error by stating on its certification page that 18 pages have been ceritified instead of
1335 pages. Petitioner had to call Circuit Court and literally DEMAND to provide
general certification for the legal file because circuit court has bee refusing doing so.

Herrin v Straus, 810 s.w. 2d at 594-95 supreme court Sprung "law favors a trial on the
merits "sprung v negwer materials supreme court of missouri A case must be

16

decided on the merits. Sprung, 727 S.W.2d at 887. The Sprung Court stated well that:
A primary goal of the judicial system is to seek the truth and to do justice between
the parties. To promote this goal a case must be decided on the MERITS;
procedural 'niceties' should NOT pose insurmountable barriers. These competing
goals of efficiency, finality, and justice must be carefully balanced to ensure the
public's confidence in the court system.
This case must be decided on MERITS and make fair precedent that NO lawfirm can win
the case based on fact of "knowing" judges and on desire to falsify facts.
Allowing the judgment to stand prejudices Petitioner by cutting off her day in court.
Petitioner has suffered damages resulted in vicious, malicious and willfull actions by
Realvest Inc, based on wich Petitioner’s homestead has been unlawfully foreclosed,
In the interest ofjustice, the Court should pronounce that the circuit Court’s grant of the
December 07 of 2016 judgment in Respondent’s favor should be reversed and the case
remanded to Trial Court for a decision on the merits.

the trial court will be sustained unless there is no substantial evidence to support it, unless
it is against the weight of the evidence, or unless it erroneously DECLARES OR
APPLIES THE LAW.
The judgment entered by Circuit Court of Camden County of M issouri is outrageously
and clearly against the law, facvts and weight of evidences and therefore needs to be
reviewed in the interest of the people of united states and justice. Petitioner’s

17

Constitutional rights such as right for fair trial has been brutally denied.
This case has been filed in 2016 under Obama and now we have our hero and true
changer of history of USA President Trump, who changed many federal judges. I hope
that Supreme Court of United States acting on the side of the People will take this case in
order that truth and justice will prevail.
Following cases support Petitioner’s side and presented in Petitioner’s pleadings:

Affiliated Acceptance Corp. v. Boggs, (Mo.917 S.W.2d 652) (1996), Addison, 758
S. W.2d at 458., Auto Salvage Co., 134 S.W.3d 633, 635 (Mo. banc 2004)). fiahl v.
Miles, 222 (Mo. App. 984, 987, 6 S.W.2d 661, 663 (K.C. Ct. App. 1928)), Bank v.
Donnell, (111 Mo. 384, 72 S.W. 925 (1903), Bass v. Nooney Co.,( 646 S.W.2d 765,
722-733 (Mo banc 1983), Brown, 655 S.W.2d at 760, Gehlert v. Smiley, 114 S.W.2d
1029 (Mo. 1937).
Cuendetv. Love, Bryan & Co., Fischman v. Schultz, 55 S.W.2d 313 (St. L. Ct. App.
1932).
Flinn v. Mechanics'Bldg. Ass’n, 93 (Mo. App. 444, 67 S. W. 729 (St. L. Ct. App. 1902,
Hecker v. Putney, 196 S. W.2d 442 (St. L. Ct. App. 1946), Holmes v. Royal Loan Ass 'n,
166 Mo. App. 719, 150 S.W. 1111 (K.C. Ct. App. 1912, Kirkpatrick v. Webb 58 S.W. 3d
903, 905 (Mo App. SD 2001), J. I. Case Threshing Mach. Co. v. Tomlin, 174 Mo. App.
512, 161 S. W. 286 (K.C. Ct. App. 1913) , Kreibohm v. Yancey, 154 Mo. 67, 85, 55 S. W.
260, 266 (1900),

18

Osborn v. Payne, 111 Mo. App. 29, 85 S.W. 667 (K.C. Ct. App. 1905), Securities Inv. Co.
v. Rottweiler, 7 S. W.2d 484, 486 (St. L. Ct. App. 1928), Webster v. Sterling Fin. Co., 355
Mo. 193, 203, 195 S. W.2d 509, 514 (1946), Willard, Finance Charges or Time Price
Differential in Installment SalesUsury, 24 Mo. L. REv. 225 (1959). v. Neuman, 271 S. W.
842 (St. L. Ct. App. 1925), Cavallyv. Crutcher, 9S.W.2d 848 (Spr. Ct. App. 1928).
Flowers, 384 S.W.3d at 314.
Holmes v Wells Fargo WD78666 (Mo.App. W.D. 2012), Laughrey, Default Judgments
in Missouri, 50 Mo.L.Rev. 841, 843-44 (1985). Spier v. Brewer. 958 S. W. 2d 83, 87 (Mo
App. E.D. 1997) ,Moss Springs Cemetery Association v. Johannes 970 S. W. 2d 372
376-377 (Mo App. S.D. 1998), Lake Shore & M.S. Ry. Co. v. Prentice,147 US 101,13 S
Ct.261,37L Ed (1893),
Lance SCOTT, v. BLUE SPRINGS FORD SALES, INC., No. SC 86287. November 22,
2005,
Medlock v. Farmers State Bank of Texas County, 696 S.W.2d 873, 879 (Mo. App. S.D.
1985) (citing Bass, 646 S.W.2d at 772-73). JPerf ect 10, inc v Cybernet Ventures Inc.
213 F. Supp.2d 1146, 1155 (C.C.Cal.2002)Johnson-Wooldridgev Wooldridge 2001
Ohio App LEXIS 3319 at 12-13 (Ohio App July 26, 2001).. Chapman v SFNewspaper
Agency 2002 U.S.District LEXIS 1 SO....LEXOLOGY.COM informationon a
governmental website will be admissible under public records, trying to establish info
posted on websirte is not hearsay
prung, 727 S.W.2d at 887, Randolph v. Rodgers, 170 F.3d 850, 857 (8th Cir. 1999)

19

State ex reL Nixon v. Telco Directory Publ'g., 863 S.W.2d 596 601 (Mo. banc 1993).
State Farm MuL Ins. v. Campbell,538 us 408, 418, 123 S. Ct.1513,155 L Ed 2d595
(2003).
The Supreme Court's opinion in State Farm MuL Ins. v. Campbell,
Truck Ins. Exch. v. Prairie Framing, LLC, 162 S.W.3d 64, 94-95 (Mo.App.2005).
Allen v, Newton, 219MoApp. 74, 79, 266S.W 327, 329 (K.C. Ct. App. 1924)
Citizens' National Bank v. Donnell 172 Mo 384, 72 S. W 925 C1903)
Robin v. Newman 271 S. W. 842 (St. L. Ct. App. 1925)
"Downey v. McKee, 218 S.W.3d 492, 497 (Mo.App.2007)(quoting Werremeyer v. K.C.
Truth In Lending Act (TILA)

IX. REASONS FOR GRANTING THE WRIT
This case presents this Court with an opportunity to set the standards in Missouri that
Courts decide cases based on merits, law, facts, evidences and true justice instead of
corruption and “knowing right people” who can make decision by being blackmailed or
bribed or both. All evidences are clearly presented in this case, law specified. Please
review this case in order to set good and only appropriate precedent for Missouri.
X. CONCLUSION AND PRAYER FOR RELIEF
The judgment of the trial court shall be reversed because there is no substantial evidence

20

to support it, it is against the weight of the evidence, and it erroneously DECLARES OR
APPLIES THE LAW. Wherefore, Petitioner respectfully asks this Court to grant
certiorari to review the 26th Circuit’s judgment,
summarily reverse the decision below, or grant such other relief as justice requires.

DATED this 12nd day of July, 2020.
Respectfully submitted,

Alla Zorikova
1905 Wilcox Ave, #175
Los Angeles, CA 90068
323-209-5186
Qlivia.car@mail.ru

21

